SUPPLEMENTAL APPENDIX
APPENDIX F: Complaint for Contribution Under
CERCLA, (C.D. Cal. April 30, 2018)
(D.C. Dkt. 749) ................................. Supp. App. 1
APPENDIX G: Omega Chemical Site Settlement
Agreement (C.D. Cal. April 30, 2018)
(D.C. Dkt. 746) ............................... Supp. App. 44

S. App. 1
APPENDIX F
Larry G. Gutterridge (SBN 105734)
HANNA AND MORTON LLP
444 South Flower Street, Suite 1500
Los Angeles, California 90071-2916
Telephone: (213) 628-7131
Facsimile: (213) 623-3379
Keith F. Millhouse (SBN 126082)
MILLHOUSE LAW GROUP
2815 Townsgate Road, Suite 330
Westlake Village California 91361
Telephone: (805) 230-2280
Facsimile: (805) 230-2281
Attorneys for Plaintiffs
OMEGA CHEMICAL PRP GROUP LLC
OMEGA CHEMICAL PRP GROUP
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA –
WESTERN DIVISION
OMEGA CHEMICAL PRP
GROUP LLC, a Delaware
limited liability company,
and OMEGA CHEMICAL
PRP GROUP, an
unincorporated association
Plaintiffs,
v.

CASE NO.
CV04-1340 HK (RCx)
COMPLAINT FOR:
1.

CONTRIBUTION
UNDER CERCLA
AGAINST NONFEDERAL DEFENDANTS;

AARON THOMAS COMPANY, 2. CONTRIBUTION
INC., a California corporation;
UNDER CERCLA
ACTION PRINTED CIRCUITS,
AGAINST THE
a California corporation;

S. App. 2
AEROSCIENTIFIC
CORPORATION, a California
corporation; AIR
CONDITIONING CO. INC.,
a California corporation;
AIRCRAFT CYLINDER &
TURBINE, INC., a California
corporation, ALPS ELECTRIC
(NORTH AMERICA), INC.,
a California corporation;
ARRAL INDUSTRIES, INC.,
a California corporation;
ASHLAND, INC., an Ohio
corporation; AUTO COACH
INC., a California corporation;
BALDWIN PARK UNIFIED
SCHOOL DISTRICT, a
California local school district;
BEVELITE ADLER, a
California corporation; BOB
NOBLES CHEVROLET,
INC., a California corporation;
BOWEN PRINTING, INC.,
a California corporation;
BUD’S OIL SERVICE, an
Arizona corporation; C & W
PALLET, a California
corporation; CABOT
CORPORATION, a Delaware
corporation; CARVIN CORP.
a California corporation;
CAST METAL FINISHING,
a California corporation;
CBS BROADCASTING, INC.,
a New York corporation;
CENTRE PROPERTIES LTD.,

FEDERAL
DEFENDANTS
(Filed Feb. 27, 2004)

S. App. 3
an Illinois corporation;
CHATSWORTH PLATING
CO., California corporation;
CHEM TECH SYSTEMS,
a California corporation;
CHESAPEAKE INDUSTRIES,
INC., a Maryland corporation;
CHIERA, INC., a California
corporation; CHILDREN’S
HOSPITAL OF LOS
ANGELES, a non-profit
California corporation; CITY
OF IRVINE, a California
municipal corporation; CITY
OF LOS ANGELES, a
California municipal
corporation; CITY STEEL
TREATING, a California
corporation; CLOPAY
CORPORATION, a Maryland
corporation; COLUMBIA
SHOWCASE & CABINET
CO., a California corporation;
COMPETITIVE TRAILERS
INC., a California corporation;
COUNTY OF ORANGE, a
California general law
county; COUNTY OF SAN
LUIS OBISPO, a California
general law county; CROWN
COACH, INC., a Delaware
corporation; CURTIS
TECHNOLOGY INC.,
a California corporation;
DALE CARTER’S
SACRAMENTO PLATING,

S. App. 4
INC., a California corporation;
DARNER MOTOR SALES,
INC., an Arizona corporation;
DENSO SALES CALIFORNIA,
INC., a California corporation;
DOMESTIC LINEN, a
California corporation,
DURA PHARMACEUTICALS,
INC., a Delaware corporation;
EAGLE MARINE SERVICES,
LTD., a Delaware corporation;
EARL SCHEIB PAINT &
SUPPLY CO., a California
corporation; ED-LIN AUTO
BODY, INC., a California
corporation; F.M. THOMAS
AIR CONDITIONING, a
California corporation;
FONG & FONG PRINTERS
AND LITHOGRAPHERS,
INC., a California corporation;
FRESNO UNIFIED
SCHOOL DISTRICT, a
California local school district;
GALLAGHER & FERGUSON
ENG, a California corporation;
GEO INTERNATIONAL
CORPORATION, a Delaware
corporation; GOOD MARL
INC., a Nevada corporation;
GRAYCON, INC., a California
corporation; GROUP ONE
LABEL, INC., a California
corporation; HARMON
INDUSTRIES, INC., a
Missouri corporation;

S. App. 5
HERMETIC SEAL
CORPORATION, a Delaware
corporation; HIGH VOLTAGE
TRANSFORMER SERVICES
CO., INC., a California
corporation; LABELING
INCORPORATED, a California
corporation; HOLLY
DECORATIONS, INC., a
California corporation;
I & I DEBURRING, INC.,
a California corporation;
I COAT COMPANY, a California corporation; I CORP.,
dba DIGMOR CALIFORNIA,
an Ohio corporation; IMO
INDUSTRIES, INC., a
Delaware corporation;
INDALEX INC. dba
COLUMBIA PACIFIC
ALUMINUM, an Oregon
corporation; INTERNATIONAL
LABEL & TAPE CO., a
California corporation;
IT CORPORATION, a
California corporation;
J AND S LABORATORIES
INCORPORATED, a California
corporation; JACKSON
CORPORATION, a California
corporation; JET PROPULSION
LABORATORY, a Division of
the California Institute of
Technology, a California
non-profit corporation; KEY
MECHANICAL SERVICE

S. App. 6
COMPANY, a California
corporation; LAGUNA
LABORATORIES, INC.,
a California corporation;
LARSCO, INC., a California
corporation; LOS ANGELES
UNIFIED SCHOOL DISTRICT,
a California local school
district; LUBRICATION
COMPANY OF AMERICA,
a California corporation;
MAGNETIC DATA, INC.,
a California corporation;
MALLINCKRODT, INC.,
a Delaware corporation;
MAXON INDUSTRIES, INC.,
a California corporation;
AYONI ENTERPRISES,
a California corporation;
McGRAW EDISON
COMPANY, a Delaware
corporation; MICROPOLIS,
a Delaware corporation;
MID-CAL PAINTING &
DRYWALL INC., a California
corporation; MIGHTY
MOVER TRAILERS, INC.,
a California corporation;
MINSON CORPORATION,
a California corporation;
MNEMONICS INC., a
California corporation;
MORGAN GALLACHER,
INC., a California corporation;
NORTHSTAR ELECTRONICS
INC., a Texas corporation;

S. App. 7
OMNI METAL FINISHING,
INC., a California corporation;
PAINTING & STRIPPING
CORPORATION OF
AMERICA, a California
corporation; PAN PACIFIC
FISHERIES, INC.,
a California corporation;
PARA PLATE & PLASTICS
CO. INC., a California”
corporation; PASADENA
CITY COLLEGE, a California
community college;
PASMINCO INCORPORATED,
a California corporation;
PEERLESS CINE
PRODUCTS, a California
corporation; PENSKE
CORPORATION, a California
corporation; PETRO LOCK,
INC., a California corporation;
PETROLEUM TESTING
SERVICE INC., a California
corporation; PHILIPS
ELECTRONICS NORTH
AMERICA CORPORATION,
a Delaware corporation;
PHOTO CHEMICAL
PRODUCTS OF CALIFORNIA,
INC., a California corporation;
PRECISION TAG & LABEL
CORPORATION, a California
corporation; PREMIER
REFRACTORIES INC.,
a Delaware corporation;
PUTZMEISTER INC.,

S. App. 8
a Delaware corporation;
QUAKER CHEMICAL
CORPORATION,
a Pennsylvania corporation;
R AND R INDUSTRIAL
WASTE HAULERS, INC.,
a California corporation;
RAPHAEL, INC., a California
corporation; RICCOBON &
COMPANY, a California
corporation; RINCHEM CO.
INC., a New Mexico corporation;
RIVERSIDE COUNTY
PUBLISHING CO., a
California corporation;
ROBERTS MFG CO., a
California corporation; S/R
SWEEPS CO., a California
corporation; SERVIDYNE
INCORPORATED, a Georgia
corporation; SHARPE
MANUFACTURING CO.,
a California corporation;
SIMPSON STRONG-TIE
COMPANY INC., a California
corporation; SOLDER
STATION-ONE, INC.,
a California corporation;
SOUTHWEST CHEMICAL
CO., a California corporation;
SQUARE D COMPANY,
a Delaware corporation;
SUMMIT ENVIRONMENTAL
CORP., a Nevada corporation;
THE SIGNS AND SERVICES
COMPANY, a California

S. App. 9
corporation; TYCO
INTERNATIONAL (US) INC.,
a Massachusetts corporation;
U.S. FOODSERVICE,
a Delaware corporation,
UNICOR FEDERAL
PRISON INDUSTRIES, a
United States Government
corporation; UNISTRUT
CORPORATION, a Delaware
corporation; UNITED STATES
COAST GUARD, an entity
of the United States
Government; UNITED
STATES DEPARTMENT OF
AGRICULTURE, FOREST
SERVICE, an entity of the
United States Government;
UNITED STATES
DEPARTMENT OF
DEFENSE, AIR FORCE, an
entity of the United States
Government; UNITED
STATES DEPARTMENT OF
DEFENSE, ARMY, an entity
of the United States
Government; UNITED
STATES DEFENSE LOGISTICS AGENCY, an entity of
the United States Government; UNITED STATES
DEPARTMENT
OF ENERGY, an entity of
the United States Government;
UNITED STATES
DEPARTMENT OF

S. App. 10
VETERANS AFFAIRS, an
entity of the United States
Government, UTILITY
BODY COMPANY, a
California corporation;
VALLEY MOTOR CENTER,
Delaware corporation; VENTURA TOWNEHOUSE,
INC., a California corporation; VICTOR GRAPHICS,
a Maryland corporation;
VITAREL MICROELECTRONICS, INC., a California
corporation; WESTERN
CIRCUITS INC., a
California corporation;
WILDER’S PAINTING,
a California corporation,
Defendants.
Plaintiffs OMEGA CHEMICAL PRP GROUP LLC
and OMEGA CHEMICAL PRP GROUP allege as follows:
JURISDICTION AND VENUE
1. This Court has subject matter jurisdiction
over these claims pursuant to 28 U.S.C. § 1331 (federal
question) and 42 U.S.C. § 9613(b) (CERCLA contribution).
2. This action involves the Omega Chemical Corporation Superfund Site in Whittier, California.
3. Venue is proper in this District pursuant to 28
U.S.C. § 1391(b) in that the claims for relief arose in

S. App. 11
this District and the releases or threatened releases of
hazardous substances giving rise to these claims occurred in this District. (42 U.S.C. § 9613(b)).
PARTIES
PLAINTIFFS
4. Plaintiff OMEGA CHEMICAL PRP GROUP
LLC, a Delaware limited liability company (“Omega
Group LLC”), is the owner of claims for contribution
which have previously been assigned to it by entities
that have been identified as. potentially responsible
parties in connection with the Omega Chemical Corporation Superfund Site, located in Whittier, California
(“Omega Site”) and which have expended monies in response to releases and/or threatened releases of hazardous substances from the Omega Site.
5. Plaintiff OMEGA CHEMICAL PRP GROUP is
an unincorporated association (“OPOG”) that has expended monies in response to releases and/or threatened releases of hazardous substances from the Omega
Site and has members who could otherwise sue in this
action in their own right.
6. Investigations are ongoing regarding the
claims and the: parties responsible for damages, injuries, and the costs as alleged therein. The allegations of this Complaint are made. on information and
belief and are based upon the investigation conducted to date. This Complaint will be amended or

S. App. 12
supplemented if additional investigation or analysis so
warrants.
NON-FEDERAL DEFENDANTS
7. At all times herein relevant, Defendant AARON
THOMAS COMPANY was a corporation incorporated
under the laws of the State of California, authorized to
do business in the State of California, County of Los
Angeles.
8. At all times herein relevant, Defendant ACTION PRINTED CIRCUITS was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
9. At all times herein relevant, Defendant AEROSCIENTIFIC CORPORATION was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
10. At all times herein relevant, Defendant AIR
CONDITIONING CO. INC., was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California, County
of Los Angeles.
11. At all times herein relevant, Defendant AIRCRAFT CYLINDER & TURBINE, INC., was a corporation incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.

S. App. 13
12. At all times herein relevant, Defendant
ALPS ELECTRIC (NORTH AMERICA), INC., was a
corporation incorporated under the laws of the State
of California, authorized to do business in the State
of California, County of Los Angeles.
13. At all times herein relevant, Defendant
ARRAL INDUSTRIES, INC., was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California,
County of Los Angeles.
14. At all times herein relevant, Defendant ASHLAND, INC., was a corporation incorporated under the
laws of the State of Ohio, authorized to do business in
the State of California, County of Los Angeles.
15. At all times herein relevant, Defendant
AUTO COACH INC., was a corporation incorporated
under the laws of the State of California, authorized to
do business in the State of California, County of Los
Angeles.
16. At all times herein relevant, Defendant
BEVELITE ADLER was a corporation incorporated
under the laws of the State of California, authorized to
do business in the State of California, County of Los
Angeles.
17. At all times herein relevant, Defendant BOB
NOBLES CHEVROLET, INC., was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California,
County of Los Angeles.

S. App. 14
18. At all times herein relevant, Defendant
BOWEN PRINTING was a corporation incorporated
under the laws of the State of California, authorized to
do business in the State of California, County of Los
Angeles.
19. At all times herein relevant, Defendant
BUD’S OIL SERVICE was a corporation incorporated
under the laws of the State of Arizona, authorized to
do business in the State of California, County of Los
Angeles.
20. At all times herein relevant, Defendant C &
W PALLET was a corporation incorporated under the
laws of the State of California, authorized to do business in the State of California, County of Los Angeles.
21. At all times herein relevant, Defendant
CABOT CORPORATION was a corporation incorporated under the laws of the State of Delaware, authorized to do business in the State of California, County
of Los Angeles.
22. At all times herein relevant, Defendant CARVIN
CORP. was a corporation incorporated under the laws
of the State of California, authorized to do business in
the State of California, County of Los Angeles.
23. At all times herein relevant, Defendant
CAST METAL FINISHING was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California, County
of Los Angeles.

S. App. 15
24. At all times herein relevant, Defendant CBS
BROADCASTING, INC., was a corporation incorporated under the laws of the State of New York, authorized to do business in the State of California, County
of Los Angeles.
25. At all times herein relevant, Defendant
CENTRE PROPERTIES LTD. was a corporation incorporated under the laws of the State of Illinois, authorized to do business in the State of California, County
of Los Angeles.
26. At all times herein relevant, Defendant
CHATSWORTH PLATING CO. was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
27. At all times herein relevant, Defendant
CHEM TECH SYSTEMS was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California, County
of Los Angeles.
28. At all times herein relevant, Defendant
CHESAPEAKE INDUSTRIES, INC., was a corporation incorporated under the laws of the State of
Maryland, authorized to do business in the State
of California, County of Los Angeles.
29. At all times herein relevant, Defendant
CHIERA, INC., was a corporation incorporated under
the laws of the State of California, authorized to do

S. App. 16
business in the State of California, County of Los Angeles.
30. At all times herein relevant, Defendant
CHILDREN’S HOSPITAL OF LOS ANGELES was a
non-profit corporation incorporated under the laws of
the State of California, authorized to do business in the
State of California, County of Los Angeles.
31. At all times herein relevant, Defendant CITY
STEEL TREATING was a corporation incorporated
under the laws of the State of California, authorized to
do business in the State of California, County of Los
Angeles.
32. At all times herein relevant, Defendant
CLOPAY CORPORATION was a corporation incorporated under the laws of the State of Maryland, authorized to do business in the State of California, County
of Los Angeles.
33. At all times herein relevant, Defendant COLUMBIA SHOWCASE & CABINET CO. was a corporation incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.
34. At all times herein relevant, Defendant
COMPETITIVE TRAILERS INC., was a corporation
incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
35. At all times herein relevant, Defendant CROWN
COACH, INC., was a corporation incorporated under

S. App. 17
the laws of the State of Delaware, authorized to do
business in the State of California, County of Los Angeles.
36. At all times herein relevant, Defendant
CURTIS TECHNOLOGY, INC., was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
37. At all times herein relevant, Defendant
DALE CARTER’S SACRAMENTO PLATING, INC.,
was a corporation incorporated under the laws of the
State of California, authorized to do business in the
State of California, County of Los Angeles.
38. At all times herein relevant, Defendant
DARNER MOTOR SALES, INC., was a corporation incorporated under the laws of the State of Arizona, authorized to do business in the State of California,
County of Los Angeles.
39. At all times herein relevant, Defendant
DENSO SALES CALIFORNIA, INC., was a corporation incorporated under the laws of the State of California, authorized to do business in the State of
California, County of Los Angeles.
40. At all times herein relevant, Defendant DOMESTIC LINEN was a corporation incorporated under
the laws of the State of California, authorized to do
business in the State of California, County of Los Angeles.

S. App. 18
41. At all times herein relevant, Defendant
DURA PHARMACEUTICALS, INC., was a corporation
incorporated under the laws of the State of Delaware,
authorized to do business in the State of California,
County of Los Angeles.
42. At all times herein relevant, Defendant EAGLE MARINE SERVICES, LTD., was a corporation incorporated under the laws of the State of Delaware,
authorized to do business in the State of California,
County of Los Angeles.
43. At all times herein relevant, Defendant
EARL SCHEIB PAINT & SUPPLY CO. was a corporation incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.
44. At all times herein relevant, Defendant EDLIN AUTO BODY, INC., was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California, County
of Los Angeles.
45. At all times herein relevant, Defendant F.M.
THOMAS AIR CONDITIONING was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
46. At all times herein relevant, Defendant
FONG & FONG PRINTERS AND LITHOGRAPHERS,
INC., was a corporation incorporated under the laws of

S. App. 19
the State of California, authorized to do business in the
State of California, County of Los Angeles:
47. At all times herein. relevant, Defendant
GALLAGHER & FERGUSON ENG was a corporation
incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
48. At all times herein relevant, Defendant GEO
INTERNATIONAL CORPORATION was a corporation incorporated under the laws of the State of Delaware, authorized to do business in the State of
California, County of Los Angeles.
49. At all times herein relevant, Defendant
GOOD MARC, INC., was a corporation incorporated
under the laws of the State of Nevada, authorized to do
business in the State of California, County of Los Angeles.
50. At all times herein relevant, Defendant
GRAYCON, INC., was a corporation incorporated under the laws of the State of California, authorized to do
business in the State of California, County of Los Angeles.
51. At all times herein relevant, Defendant
GROUP ONE LABEL, INC., was a corporation incorporated under the laws of the State of. California, authorized to do business in the State of California,
County of Los Angeles.
52. At all times herein relevant, Defendant
HARMON INDUSTRIES, INC., was a corporation

S. App. 20
incorporated under the laws of the State of Missouri,
authorized to do business in the State of California,
County of Los Angeles.
53. At all times herein relevant, Defendant
HERMETIC SEAL CORPORATION was a corporation
incorporated under the laws of the State of Delaware,
authorized to do business in the State of California,
County of Los Angeles.
54. At all times herein relevant, Defendant
HIGH VOLTAGE TRANSFORMER SERVICES CO.,
INC., was a corporation incorporated under the laws of
the State of California, authorized to do business in the
State of California, County of Los Angeles.
55. At all times herein relevant, Defendant HLM
LABELING INCORPORATED was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
56. At all times herein relevant, Defendant
HOLLY DECORATIONS, INC., was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
57. At all times herein relevant, Defendant I & I
DEBURRING, INC., was a corporation incorporated
under the laws of the State of California, authorized to
do business in the State of California, County of Los
Angeles.

S. App. 21
58. At all times herein relevant, Defendant I
COAT COMPANY was a corporation incorporated under the laws of the State of California, authorized to
do. business in the State of California, County of Los
Angeles.
59. At all times herein relevant, Defendant I
CORP., dba DIGMOR CALIFORNIA, was a corporation incorporated under the laws of the State of Ohio,
authorized to do business in the State of California,
County of Los Angeles.
60. At all times herein relevant, Defendant IMO
INDUSTRIES, INC., was a corporation incorporated under the laws of the State of Delaware, authorized to
do business in the State of California, County of Los
Angeles.
61. At all times herein relevant, Defendant INDALEX INC., dba COLUMBIA PACIFIC ALUMINUM,
was a corporation incorporated under the laws of the
State of Oregon, authorized to do business in the State
of California, County of Los Angeles.
62. At all times herein relevant, Defendant INTERNATIONAL LABEL & TAPE CO. was a corporation incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.
63. At all times herein relevant, Defendant IT
CORPORATION was a corporation incorporated under the laws of the State of California, authorized to do

S. App. 22
business in the State of California, County of Los Angeles.
64. At all times herein relevant, Defendant J
AND S LABORATORIES INCORPORATED was a corporation incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.
65. At all times herein relevant, Defendant
JACKSON CORPORATION was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California,
County of Los Angeles.
66. At all times herein relevant, Defendant KEY
MECHANICAL SERVICE COMPANY was a corporation incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.
67. At all times herein relevant, Defendant LAGUNA LABORATORIES, INC., was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
68. At all times herein relevant, Defendant
LARSCO, INC., was a corporation incorporated under
the laws of the State of California, authorized to do
business in the State of California, County of Los Angeles.
69. At all times herein relevant, Defendant LUBRICATION COMPANY OF AMERICA was a corporation

S. App. 23
incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
70. At all times herein relevant, Defendant
MAGNETIC DATA, INC., was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California, County
of Los Angeles.
71. At all times herein relevant, Defendant
MALLINCKRODT, INC., was a corporation incorporated under the laws of the State of Delaware, authorized to do business in the State of California, County
of Los Angeles.
72. At all times herein relevant, Defendant
MAXON INDUSTRIES; INC., was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
73. At all times herein relevant, Defendant
MAYONI ENTERPRISES was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California, County
of Los Angeles.
74. At all times herein relevant, Defendant
McGRAW EDISON COMPANY was a corporation incorporated under the laws of the State of Delaware,
authorized to do business in the State of California,
County of Los Angeles.

S. App. 24
75. At all times herein relevant, Defendant MICROPOLIS was a corporation incorporated under the
laws of the State of Delaware, authorized to do business in the State of California, County of Los Angeles.
76. At all times herein relevant, Defendant MIDCAL PAINTING & DRYWALL, INC., was a corporation incorporated under the laws of the State of California, authorized to do business in the State of
California, County of Los Angeles.
77. At all times herein relevant, Defendant
MIGHTY MOVER TRAILERS, INC., was a corporation
incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
78. At all times herein relevant, Defendant MINSON CORPORATION was a corporation incorporated
under the laws of the State of California, authorized to
do business in the State of California, County of Los
Angeles.
79. At all times herein relevant, Defendant
MNEMONICS INC. was a corporation incorporated
under the laws of the State of California, authorized to
do business in the State of California, County of Los
Angeles.
80. At all times herein relevant, Defendant
MORGAN GALLACHER, INC., was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.

S. App. 25
81. At all times herein relevant, Defendant
NORTHSTAR ELECTRONICS, INC., was a corporation incorporated under the laws of the State of Texas;
authorized to do business in the State of California,
County of Los Angeles.
82. At all times herein relevant, Defendant
OMNI METAL FINISHING, INC., was a corporation
incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.,
83. At all times herein relevant, Defendant
PAINTING & STRIPPING CORPORATION OF AMERICA was a corporation incorporated under the laws of
the State of California, authorized to do business in the
State of California, County of Los Angeles.
84. At all times herein relevant, Defendant PAN
PACIFIC FISHERIES, INC., was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California,
County of Los Angeles.
85. At all times herein relevant, Defendant
PARA PLATE & PLASTICS CO. INC. was a corporation incorporated under the laws of the State of California, authorized to do business in the State of
California, County of Los Angeles.
86. At all times herein relevant, Defendant PASMINCO INCORPORATED was a corporation incorporated under the laws of the State of California,

S. App. 26
authorized to do business in the State of California,
County of Los Angeles.
87. At all times herein relevant, Defendant
PEERLESS CINE PRODUCTS was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
88. At all times herein relevant, Defendant
PENSKE CORPORATION was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California, County
of-Los Angeles.
89. At all times herein relevant, Defendant
PETRO LOCK, INC., was a corporation incorporated
under the laws of the State of California, authorized to
do business in the State of California, County of Los
Angeles.
90. At all times herein relevant, Defendant PETROLEUM TESTING SERVICE INC: was a corpo|ration incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.
91. At all times herein relevant, Defendant
PHILIPS ELECTRONICS NORTH AMERICA CORPORATION was a corporation incorporated under the
laws of the State of Delaware, authorized to do business in the State of California, County of Los Angeles.
92. At all times herein relevant, Defendant
PHOTO CHEMICAL PRODUCTS OF CALIFORNIA,

S. App. 27
INC., was a corporation incorporated under the laws of
the State of California, authorized to do business in the
State of California, County of Los Angeles.
93. At all times herein relevant, Defendant PRECISION TAG & LABEL CORPORATION was a corporation incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.
94. At all times herein relevant, Defendant
PREMIER REFRACTORIES, INC., was a corporation
incorporated under the laws of the State of Delaware,
authorized to do business in the State of California,
County of Los Angeles.
95. At all times herein relevant, Defendant
PUTZMEISTER INC., was a corporation incorporated
under the laws of the State of Delaware, authorized to
do business in the State of California, County of Los
Angeles.
96. At all times herein relevant, Defendant
QUAKER CHEMICAL CORPORATION was a corporation incorporated under the laws of the State of
Pennsylvania, authorized to do business in the State of
California, County of Los Angeles.
97. At all times herein relevant, Defendant R
AND R INDUSTRIAL WASTE HAULERS, INC., was a
corporation incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.

S. App. 28
98. At all times herein relevant, Defendant
RAPHAEL, INC., was a corporation incorporated under the laws of the State of California, authorized to do
business in the State of California, County of Los Angeles.
99. At all times herein relevant, Defendant
RICCOBON & COMPANY was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California, County
of Los Angeles.
100. At all times herein relevant, Defendant
RINCHEM CO. INC. was a corporation incorporated
under the laws of the State of New Mexico, authorized
to do business in the State of California, County of Los
Angeles.
101. At all times herein relevant, Defendant
RIVERSIDE COUNTY PUBLISHING CO. was a corporation incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.
102. At all times herein relevant, Defendant
ROBERTS MFG CO. was a corporation incorporated
under the laws of the State of California, authorized to
do business in the State of California, County of Los
Angeles.
103. At all times herein relevant, Defendant SIR.
SWEEPS CO. was a corporation incorporated under
the laws of the State of California, authorized to do

S. App. 29
business in the State of California, County of Los Angeles.
104. At all times herein relevant, Defendant
SERVIDYNE INCORPORATED was a corporation incorporated under the laws of the State of Georgia, authorized to do business in the State of California,
County of Los Angeles.
105. At all times herein relevant, Defendant
SHARPE MANUFACTURING CO. was a corporation
incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
106. At all times herein relevant, Defendant
SIMPSON STRONG-TIE COMPANY INC. was a corporation incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.
107. At all times herein relevant, Defendant
SOLDER STATION-ONE, INC., was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
108. At all times herein relevant, Defendant
SOUTHWEST CHEMICAL CO. was a corporation incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
109. At all times herein relevant, Defendant
SQUARE D COMPANY was a corporation incorporated

S. App. 30
under the laws of the State of Delaware, authorized to
do business in the State of California, County of Los
Angeles.
110. At all times herein relevant, Defendant
SUMMIT ENVIRONMENTAL CORP. was a corporation incorporated under the laws of the State of Nevada, authorized to do business in the State of
California, County of Los Angeles.
111. At all times herein relevant, Defendant
THE SIGNS AND SERVICES COMPANY was a corporation incorporated under the laws of the State of
California, authorized to do business in the State of
California, County of Los Angeles.
112. At all times herein relevant, Defendant
TYCO INTERNATIONAL (US) INC. was a corporation
incorporated under the laws of the State of Massachusetts, authorized to do business in the State of California, County of Los Angeles.
113. At all times herein relevant, Defendant U.S.
FOODSERVICE INC. was a corporation incorporated
under the laws of the State of Delaware, authorized to
do business in the State of California, County of Los
Angeles.
114. At all times herein relevant, Defendant
UNISTRUT CORPORATION was a corporation incorporated under the laws of the State of Delaware, authorized to do business in the State of California,
County of Los Angeles.

S. App. 31
115. At all times herein relevant, Defendant
UTILITY BODY COMPANY was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California,
County of Los Angeles.
116. At all times herein relevant, Defendant
VALLEY MOTOR CENTER, INC., was a corporation
incorporated under the laws of the State of Delaware,
authorized to do business in the State of California,
County of Los Angeles.
117. At all times herein relevant, Defendant
VENTURA TOWNEHOUSE, INC., was a corporation
incorporated under the laws of the State of California,
authorized to do business in the State of California,
County of Los Angeles.
118. At all times herein relevant, Defendant
VICTOR GRAPHICS was a corporation incorporated
under the laws of the State of Maryland, authorized to
do business in the State of California, County of Los
Angeles.
119. At all times herein relevant, Defendant
VITAREL MICROELECTRONICS, INC., was a corporation incorporated under the laws of the State of California, authorized to do business in the State of
California, County of Los Angeles.
120. At all times herein relevant, Defendant
WESTERN CIRCUITS INC. was a corporation incorporated under the laws of the State of California,

S. App. 32
authorized to do business in the State of California,
County of Los Angeles.
121. At all times herein relevant, Defendant
WILDER’S PAINTING, was a corporation incorporated under the laws of the State of California, authorized to do business in the State of California, County
of Los Angeles,
122. At all times herein relevant, Defendant
BALDWIN PARK UNIFIED SCHOOL DISTRICT was
a department, agency and/or instrumentality of the
State of California, doing business in the County of Los
Angeles.
123. At all times herein relevant, Defendant
FRESNO UNIFIED SCHOOL DISTRICT was a department, agency and/or instrumentality of the State
of California, doing business in the County of Los Angeles.
124. At all times herein relevant, Defendant
JET PROPULSION LABORATORY, A DIVISION OF
THE CALIFORNIA INSTITUTE TECHNOLOGY, was
a non-profit department, agency and/or instrumentality of the State of California, doing business in the
County of Los Angeles.
125. At all times herein relevant, Defendant
LOS ANGELES UNIFIED SCHOOL DISTRICT was a
department, agency and/or instrumentality of the
State of California, doing business in the County of Los
Angeles.

S. App. 33
126. At all times herein relevant, Defendant
PASADENA CITY COLLEGE I was a department,
agency and/or instrumentality of the State of California, doing business in the County of Los Angeles.
127. At all times herein relevant, Defendant
CITY OF IRVINE-was a municipality incorporated under the laws of the State of California.
128. At all times herein relevant, Defendant
CITY OF LOS ANGELES was a municipality incorporated under the laws of the State of California.
129. At all times herein relevant, Defendant
COUNTY OF ORANGE, CALIFORNIA, was a general
law county of the State of California.
130. At all times herein relevant, Defendant
COUNTY OF SAN LUIS OBISPO, CALIFORNIA, was
a general law county of the State of California.
131. Each of the Non-Federal Defendants is a
“person” as defined in CERCLA § 101(21), 42 U.S.C.
§ 9601(21).
FEDERAL DEFENDANTS
132. At all times herein relevant, Defendant
UNICOR FEDERAL PRISON INDUSTRIES was a
United States Government corporation.
133. At all times herein relevant, Defendant
UNITED. STATES COAST GUARD was an entity of
the United States Government.

S. App. 34
134. At all times herein relevant, Defendant
UNITED STATES DEPARTMENT OF AGRICULTURE, FOREST SERVICE was an entity of the United
States Government.
135. At all times herein relevant, Defendant
UNITED STATES DEPARTMENT OF DEFENSE,
AIR FORCE was an entity of the United States Government.
136. At all times herein relevant, Defendant
UNITED STATES DEPARTMENT OF DEFENSE,
ARMY was an entity of the United States Government.
137. At all times herein relevant, Defendant
UNITED STATES DEFENSE LOGISTICS AGENCY
was an entity of the United States Government.
138. At all times herein relevant, Defendant
UNITED STATES DEPARTMENT OF ENERGY was
an entity of the United States. Government.
139. At all times herein relevant, Defendant
UNITED STATES DEPARTMENT OF VETERANS
AFFAIRS was an entity of the United States Government.
140. Each of the Federal Defendants is a “person” as defined in CERCLA § 101(21), 42 U.S.C.
§ 9601(21).
GENERAL ALLEGATIONS
141. The Omega Chemical Corporation operated
a spent solvent and refrigerant recycling and treatment

S. App. 35
facility from approximately 1976 through 1991, at
12504 East Whittier Boulevard, Whittier, California.
During Omega Chemical Corporation’s years of operations, drums and bulk loads of waste solvent, chemicals
and hazardous materials from various industrial activities and generators were processed at the Omega Site
and other activities occurred respecting hazardous
substances received at the Omega Site.
142. The EPA issued Unilateral Administrative
Order 95-15 (“UAO”) on May 9, 1995, and amended
the same in September 1995. Among other things, the
UAO required the removal of various containers of materials, drums of hazardous waste and decommissioning of certain equipment at the Omega Site. The second
portion of the UAO required an investigation of the extent of soil and groundwater contamination at, or from,
the Omega Site.
143. In response to the UAO, assignors to Plaintiff Omega Chemical LLC and members of Plaintiff
OPOG undertook to characterize and remove various
drums from the Omega Site, decommission equipment,
remove grossly contaminated soils and began the investigation of the extent of any soil and groundwater
contamination.
144. On January 9, 1999, pursuant to CERCLA
§ 105, 42 U.S.C. § 9605, EPA placed the Omega Site on
the National Priorities List, set forth at 40 C.F.R., Part
300, Appendix B. 64 Fed. Reg. 2950.
145. On or about April 1, 1999, the EPA issued
special notice letters to a group of potentially responsible

S. App. 36
parties, including assignors to Plaintiff Omega Chemical LLC and members of Plaintiff OPOG, in connection with the Omega Site. On or about May 28, 1999,
assignors to Plaintiff Omega Chemical LLC and members of Plaintiff OPOG, among others, submitted a
good faith response to the special notice letter. On February 28, 2001, the EPA and assignors to Plaintiff
Omega Chemical LLC and members of Plaintiff OPOG,
among other parties, entered into a Partial Consent
Decree for work on the Omega Site. United States of
America v. Abex Aerospace Division, et al., U.S.D.C.
(Central District—CA, Western. Div.) CV-00-012471.
The work is being conducted by assignors to Plaintiff
Omega Chemical LLC, Plaintiff OPOG and members
of Plaintiff OPOG, in accordance with the requirements of the Partial Consent Decree and its Appendices. The work being performed by the Plaintiff
Omega Chemical LLC, Plaintiff OPOG and member of
Plaintiff OPOG constitutes a response action pursuant
to CERCLA § 113.
146. There were, and are, releases and threatened releases, within the meaning of CERCLA
§ 101(22), 42 U.S.C. § 9601(22), of hazardous substances, including, but not limited to, perchloroethylene (“PCE”) and trichloroethylene (“TCE”), at the
Omega Site.

S. App. 37
FIRST CAUSE OF ACTION
(Contribution Under CERCLA
Against Non-Federal Defendants)
147. Plaintiffs incorporate herein by reference
each and every allegation in. paragraphs 1 through
146, inclusive.
148. The Omega Site is a “facility” as that term
is defined in CERCLA, 42 U.S.C. § 9601(9).
149. Non-Federal Defendants, and each of them,
are a “person” as that term is defined within the meaning of CERCLA, 42 U.S.C. § 9601(21), that is potentially liable for costs incurred in response to the release
or threatened release of hazardous substances.
150. CERCLA § 113(f )(1), 42 U.S.C. § 9613(g)(2),
provides that any person may seek contribution from
any other person who is liable or potentially liable under CERCLA § 107(a), 42 U.S.C. § 9607(a).
151. Non-Federal Defendants, individually and
collectively, either generated, transported or arranged
for the disposal or treatment of hazardous substances,
owned or possessed by them as that term is defined in
CERCLA § 101(9), 42 U.S.C. § 9601(9) at the Omega
Site.
152. Non-Federal Defendants, and each of them,
have caused, or are otherwise responsible for, the releases and/or threatened releases of hazardous substances as those terms are defined in CERCLA, 42

S. App. 38
U.S.C. §§ 9601(22) and (14) respectively, into the environment at, or from, the Omega Site.
153. The releases and/or threatened releases of
hazardous substances of Non-Federal Defendants, and
each of them, have caused and continue to cause contamination of the soil, groundwater and environment
at and from the Omega Site.
154. The releases and/or threatened releases of
hazardous substances into the environment have
caused Plaintiff OPOG and its members and Plaintiff
Omega Group LLC’s assignors to incur response costs
in excess of $6,500,000. for the defense, investigation
and response to said releases and threatened releases
for which Non-Federal Defendants, and each of them,
are liable under CERCLA, 42 U.S.C. §§ 9607 and 9613.
155. The response costs incurred and/or to be incurred by Plaintiff OPOG and its members and Plaintiff Omega Group LLC’s assignors have been and will
be necessary and consistent with the National Contingency Plan.
156. Non-Federal Defendants, and each of them,
are liable to Plaintiffs for contribution and indemnification under CERCLA, 42 U.S.C. §§ 9607 and 9613. for
all past and future response actions and costs in such
amounts as determined by the Court using such equitable factors as appropriate.

S. App. 39
SECOND CAUSE OF ACTION
(Contribution Under CERCLA
Against the Federal Defendants)
157. Plaintiff OPOG incorporates herein by reference each and every allegation in paragraphs 1
through 156, inclusive.
158. The Omega Site is a “facility” as that term
is defined in CERCLA, 42 U.S.C. § 9601(9).
159. Federal Defendants, and each of them, are a
“person” as that term is defined within the meaning of
CERCLA, 42 U.S.C. § 9601(21), that is potentially liable for costs incurred in response to the release or
threatened release of hazardous substances.
160. CERCLA § 113(f )(1), 42 U.S.C. § 9613(g)(2),
provides that any person may seek contribution from
any other person who is liable or potentially liable under CERCLA § 107(a), 42 U.S.C. § 9607(a).
161. Federal Defendants, individually and: collectively, either generated, transported or arranged for
the disposal or treatment of hazardous substances,
owned or possessed by them as that term is defined in
CERCLA § 101(9), 42 U.S.C. § 9601(9) at the Omega
Site.
162. Federal Defendants, and each of them, have
caused, or are otherwise responsible for, the releases
and/or threatened releases of hazardous substances
as those terms are defined in CERCLA, 42 U.S.C.

S. App. 40
§§ 9601(22) and (14) respectively, into the environment
at, or from, the Omega Site.
163. The releases and/or threatened releases of
hazardous substances of Federal Defendants, and each
of them, have caused and continue to cause contamination of the soil, groundwater and environment at
and from the Omega Site.
164. The releases and/or threatened releases of
hazardous substances into the environment have
caused Plaintiff OPOG and its members to incur response costs in excess of $6,500,000 for the defense,
investigation and response to said releases and threatened releases for which Federal Defendants, and each
of them, are liable under CERCLA, 42 U.S.C. §§ 9607
and 9613.
165. The response costs incurred and/or to be incurred by Plaintiff OPOG and its members have been
and will be necessary and consistent with the National
Contingency Plan.
166. Federal Defendants, and each of them, are
liable to Plaintiff OPOG for contribution and indemnification under CERCLA, 42 U.S.C. §§ 9607 and 9613 for
all past and future response actions and costs in such
amounts as determined by the Court using such equitable factors as appropriate.
PRAYER
WHEREFORE, Plaintiff Omega Group LLC and
Plaintiff OPOG pray for judgment as follows:

S. App. 41
1. For contribution and/or indemnification from
Non-Federal Defendants of costs and damages equal to
all of, or that portion of, the costs expended and to be
expended by Plaintiff Omega Group LLC’s assignors
and Plaintiff OPOG and its members in response to
the releases and/or threatened releases of hazardous
substances from the Omega Site that the Court determines to be allocable to Non-Federal Defendants;
2. For a declaration that Non-Federal Defendants, and each of them, are liable under CERCLA forall of, or that: portion of, the costs of response necessary
to investigate, respond to, and abate the releases and
threatened releases of hazardous substances from the
Omega Site that the Court determines to be allocable
to each Defendant;
3. For a declaration that Non-Federal Defendants, and each of them, shall be liable for contribution
and/or indemnity of the costs of response to be incurred
by Plaintiff Omega Group LLC’s assignors and Plaintiff OPOG and its members in the future, pursuant to
obligations under the Partial Consent Decree, CERCLA, which the Court determines to be allocable to
each Defendant;
4. For a judicial determination declaring the
rights and obligations of the parties in connection with
the claims for relief asserted in this action;
5. For reasonable attorneys’ fees and costs of suit
incurred herein; and

S. App. 42
6. For such other and further relief as the Court
may deem just and proper; and
WHEREFORE, Plaintiff OPOG prays for judgment as follows:
1. For contribution and/or indemnification from
Federal Defendants of costs and damages equal to all
of, or that portion of, the costs expended and to be expended by Plaintiffs OPOG and its members in response to the releases and/or threatened releases of
hazardous substances from the Omega Site that the
Court determines to be allocable to Federal Defendants;
2. For a declaration that Federal Defendants,
and each of them, are liable under CERCLA for all of,
or that portion of, the costs of response necessary to
investigate, respond to, and abate the releases and
threatened releases of hazardous substances from the
Omega Site that the Court determines to be allocable
to each Federal Defendant;
3. For a declaration that Federal. Defendants,
and each of them, shall be liable for contribution and/or
indemnity of the costs of response to be incurred by
Plaintiffs OPOG and its members in the future, pursuant to its obligations under the Partial Consent Decree,
CERCLA and California law, which the Court determines to be allocable to each Federal Defendant;
4. For a judicial determination declaring the
rights and obligations of the parties in connection with
the claims for relief asserted in this action;

S. App. 43
5. For reasonable attorneys’ fees and costs of suit
incurred herein; and
6. For such other and further relief as the Court
may deem just and proper.
Dated: February 26, 2004
HANNA AND MORTON LLP
By: /s/ Larry G. Gutterridge
Larry G. Gutterridge
MILLHOUSE LAW GROUP
By: /s/ Keith F. Millhouse
Keith F. Millhouse
Attorneys for Plaintiffs
OMEGA CHEMICAL PRP
GROUP LLC AND OMEGA
CHEMICAL PRP GROUP

S. App. 44
APPENDIX G
PRIVILEGED AND CONFIDENTIAL.
SETTLEMENT COMMUNICATION
OMEGA CHEMICAL SITE
SETTLEMENT AGREEMENT
TABLE OF CONTENTS
Page
Section 1.01 Agreement .............................................1
Section 1.02 Consideration ........................................1
Section 2.01 “Affiliated Parties” ................................1
Section 2.02 “Agreement” ..........................................2
Section 2.03 “Settling Party” .....................................3
Section 2.0 “Claims or Claims and Liabilities” .........2
Section 2.05 “Consent Decree or Other Agreements” ........................................................................2
Section 2.06 “DTSC” ..................................................2
Section 2.07 “Effective Date” .....................................2
Section 2.08 “EPA” .....................................................2
Section 2.09 “Excluded Matters” ...............................2
Section 2.10 “Governments” ......................................2
Section 2.11 “OPOG” ..................................................2
Section 2.12 “OPOG Members” .................................3
Section 2.13 “Omega Site Settlement Escrow” .........3
Section 2.14 “Party” ...................................................3
Section 2.15 “PRPs” ...................................................3

S. App. 45
Section 2.16 “Regional Response Work” ....................3
Section 2.17 “Settlement Amount” ............................3
Section 2.18 “Site” and “Omega Site” ........................3
Section 2.19 “State”....................................................3
Section 2.20 “Total Collective Costs” .........................3
Section 2.21 “United States”......................................4
Section 3.01 Funding and Work Arrangements .........4
Section 3.02 Consent-Decree or Other Agreements .........................................................................4
Section 3.03 Settling Party’s Representations
Regarding Disclosures ..............................................5
Section 4.01 Judicial Approval of Settlement ...........5
Section 5.01 Releases for Settled Matters ................6
Section 5.02 Excluded Matters ..................................6
Section 5.03 Right of Additional Recovery ................7
Section 5.04 Civil Code Section 1542 ........................7
Section 6.01 Less Than Full-Compensation .............8
Section 6.02 Claims for Settled Matters ...................8
Section 6.03 No Prior Assignment.............................8
Section 6.04 Assignor’s Cooperation .........................8
Section 7.01 Effect of Agreement; Separate
Agreements ...............................................................9
Section 7.02 Survival of Agreement ..........................9
Section 7.03 No Admission of Liability .....................9
Section 7.04 Notice.....................................................9
Section 7.05 Remedies .............................................10

S. App. 46
Section 7.06 Enforcement of Agreement .................10
Section 7.07 Construction of Agreement. ................10
Section 7.08 Independent Counsel ..........................10
Section 7.09 Deadlines .............................................11
Section 7.10 Sole Agreement ...................................11
Section 7.11 Amendment, to Agreement .................11
Section 7.12 Corporate Authority ............................11
Section 7.13 Binding ................................................11
EXHIBIT A—SETTLING PARTIES WITH
OPENER AND SETTLEMENT AMOUNTS

RE-

EXHIBIT B—SETTLING PARTIES WITHOUT REOPENER AND SETTLEMENT AMOUNTS
EXHIBIT C—CERTIFICATION BY SETTLING PARTIES
EXHIBIT D—OPOG MEMBERS MAKING OPOG
MEMBERS ASSURANCE
EXHIBIT E—OPOG MEMBERS ASSURANCE
EXHIBIT F—AUTHORITY TO EXECUTE SETTLEMENT AGREEMENT AND MEMBERS ASSURANCE
EXHIBIT G—AMENDMENT TO OMEGA
GROUP PARTICIPATION AGREEMENT

PRP

S. App. 47
[1] OMEGA CHEMICAL SITE
SETTLEMENT AGREEMENT
ARTICLE I.
INTRODUCTION
Section 1.01

Agreement.

This Omega Chemical Site Settlement Agreement,
including any Exhibits hereto, (“Agreement”) is made
and entered into as of the Effective Date by and between the Omega Chemical PRP Organized Group,
also known as the Omega Chemical PRP Group,
(“OPOG”); and the Omega Chemical PRP Group LLC
(“Omega LLC”) (collectively, the “Group”), on the one
hand; and the entity named on the execution page and
on Exhibit A or B of this Agreement (“Settling Party”),
on the other hand, (collectively, the “Settling Parties”).
Section 1.02

Consideration.

Whereas, EPA’s stated in its September 7, 2004
letter to the Omega De Minimis Parties that if parties
are successful in negotiating a settlement with OPOG,
“then EPA will not pursue [them] further” and in consideration of the covenants, promises, and releases set
forth below, the Settlement Amount to be paid by the
Settling Party as set forth in Exhibit A or B, and without the admission or adjudication of any liability or
any issue of fact or law, except as specified herein, the
Parties hereby agree as follows:

S. App. 48
ARTICLE II.
DEFINITIONS
Unless otherwise expressly provided herein, terms
used in this Agreement that are defined in the Comprehensive Environmental Response, Compensation,
and Liability Act of 1980 as amended, 42 U.S.C. Section
9601 et seq. (“CERCLA”), or in the National Contingency Plan (“NCP”) promulgated pursuant to CERCLA, shall have the meanings assigned to them in
CERCLA. or the NCP. Whenever the capitalized terms
listed below are used in this Agreement, the following
definitions shall apply:
Section 2.01

“Affiliated Parties” shall

mean:
(a) As to each of the entities composing the
Group: its shareholders, officers, directors, members,
partners, parent corporations, subsidiaries, divisions,
related and affiliated entities or persons, employees,
agents, attorneys, trustees, beneficiaries, past owners
and operators, predecessors, successors and assigns.
[2] (b) As to a Settling Party: its shareholders, officers, directors, members, partners, parent corporations, subsidiaries, divisions, related and affiliated
entities or persons, employees, agents, attorneys, trustees, beneficiaries, past owners and operators; predecessors, successors and assigns.
Section 2.02 “Agreement” shall mean this
Omega Chemical Site Settlement Agreement including
all Exhibits thereto.

S. App. 49
Section 2.03 “Claims or Claims and Liabilities” shall mean any and all claims (including
without limitation all contribution claims in litigation
or arbitration), losses, demands, causes of action, obligations, direct or consequential damages, injuries,
liens, costs (including without limitation reimbursement of government response costs and legal costs),
civil fines, penalties, expenses, fees and liabilities of
any nature whatsoever (including without limitation
attorneys’ fees), whether contractual, statutory, equitable or under common law, whether known or unknown, whether accrued or unaccrued,- that are based
on or arise from the Site
Section 2.04 “Consent Decree or Other
Agreements” shall mean (1) the Partial Consent Decree entered in United States of America v. Abex Aerospace Division, et al., U.S.D.C. (Central District—CA,
Western Div.) CV-00-012471, and (2) any Government
(a) orders, (b) directives or (c) mandates, or (3) other
agreements which may be entered into by the. Group
or any of its members with some or all of the Governments and/or other PRPs, in connection with the Site.
The term shall also include any ancillary agreements
(such as license access agreements, articles of incorporation, statements of work, Phase la Response Work
design plan, Phase la Response Work action plan, etc.)
to the extent necessary to implement such work,
whether or not incorporated in a Consent Decree or
Other Agreements.
Section 2.05 “DTSC” shall mean the California Department of Toxic Substance Control.

S. App. 50
Section 2.06 “Effective Date” as to each
Settling Party shall mean the date funds from that
Party are received by the Group pursuant to Section
3.01(b).
Section 2.07 “EPA” shall mean the United
States Environmental Protection Agency and the
United States when acting on behalf of EPA.
Section 2.08 “Excluded Matters” is defined in Section 5.02.
Section 2.09 “Governments” shall mean
the United States, the State of California including,
but not limited to DTSC and the Regional Water Quality Control Board (“RWQCB”) and any cities, municipalities or local agencies.
Section 2.10 “OPOG” shall mean the
Omega Chemical PRP Organized Group, also known
as the Omega Chemical PRP Group formed on or about
December 21, 1994 by the Omega Chemical Site PRP
Group Participation Agreement, as amended from time
to time;
[3] Section 2.11 “Group” shall mean
OPOG and the Omega Chemical PRP Group LLC.
“Omega Chemical PRP Group LLC” shall
mean Omega Chemical PRP Group LLC.
Section 2.12 “OPOG Members” shall
mean the members of OPOG that are listed on Exhibit
D.

S. App. 51
Section 2.13 “Omega Site Settlement
Escrow” shall mean an escrow established by the
Omega LLC.
Section 2.14 “Party” shall mean a Settling
Party or the Group; “Parties” shall mean the Settling
Parties and the Group, the terms “Party” or “Parties”
do not include other persons, companies, PRPs or
Group members.
Section 2.15 “PRPs” shall mean potentially responsible parties with respect to the Site that
are not Settling Parties as defined herein.
Section 2.16 “Regional Response Work”
shall mean work that the Governments require the
Parties, or any one of them to perform, or which they
perform at the request or demand of the Governments
or any one of them, regarding regional groundwater
contamination alleged to be attributed to the Site.
Section 2.17 “Settlement Amount” shall
mean the amount of money calculated in accordance
with the terms of this Agreement and set forth in Exhibit A or B, paid by the Settling Party in consideration
for the covenants, promises, and releases herein by the
Group.
Section 2.18 “Settling Party” shall mean
the entity or person that has executed this Agreement
other than the Group.
Section 2.19 “Site” and “Omega Site”
shall mean the Omega Chemical Corporation Superfund

S. App. 52
Site listed on the National Priorities List on January
19, 1999, 64 Fed. Reg. 2945.
Section 2.20 “State” shall mean the State
of California, its departments, agencies and instrumentalities, including, but not limited to, DTSC and
the RWQCB.
Section 2.21 “Total Collective Costs”
shall mean the total Site response costs that have been
or are in the future expended by the Group and the
Settling Parties. Total Collective Costs shall include
costs attributable to (a) OPOG members, (b) PRPs
OPOG members have: as of the Effective Date, assumed responsibility for, (c) PRPs the Group has or
does otherwise settle with, (d) the Settling Parties
herein, and (e) PRPs from whom the Group recovers
through litigation to judgment. Total Collective Costs
shall not include costs incurred by third parties, including the Omega Small Volume Organized Group
(OSVOG) or expenditures from funds obtained by EPA
from its settlements with PRPs, including its [4] settlements with de minimis parties nor shall it include any
costs incurred by PRPs in executing EPA Unilateral
Administrative Order 2004-04.
Section 2.22 “United States” shall mean
the. United States of America, its departments, agencies and instrumentalities.

S. App. 53
ARTICLE III.
OBLIGATIONS OF THE PARTIES
Section 3.01

Funding and Work Arrange-

ments.
(a) Pursuant to the terms and conditions set
forth below, and after the Effective Date, the Group
shall assume each Settling Party’s responsibilities for
the Site, including, but not limited to, all response costs
associated with the Site, except as to (1) Excluded Matters set forth in Section 5.02, and (2) ministerial tasks
imposed by a Consent Decree or Other Agreements
and/or any administrative order issued by a Government that by their nature must or reasonably should
be performed individually by that Party, such as the
retention of that Party’s documents or notification to
the Governments of a change in that Party’s corporate
status. This assumption of responsibilities shall not extend to any member of OPOG except as to OPOG Members set forth on Exhibit D under the terms and
conditions set forth in Exhibit E. These continuing obligations and/or required activities shall not obligate a
Settling Party to pay the Group or be legally responsible for any amount in addition to that set forth in Exhibit A or B.
(b) Pursuant to the terms and conditions set
forth below, each Settling Party shall pay the total
amount set forth on Exhibit A or B for that Settling
Party.
(1) Settling Parties listed on Exhibit A agree
to pay in settlement of their liabilities 55,550 per ton

S. App. 54
of wastes listed in Exhibit A. Further, each Settling
Party listed on Exhibit A agrees to pay its percentage
share, as stated on Exhibit A, of the amount by which
Total Collective Costs exceed $70 million, up to the
sum of $93 million in Total Collective Costs. Each Settling Party’s percentage share shall be equal to the
volume listed for that Settling Party in Exhibit A multiplied by 5,550 divided by 70 million. Each Settling
Party listed on Exhibit A agrees not to contest this obligation except as to the accounting of Total Collective
Costs.
(2) Settling Parties listed on Exhibit B agree
to pay in settlement of their liabilities 56,550 per ton
of wastes listed in Exhibit B. However, Settling Parties
listed in Exhibit B shall have no further payment obligations under this Agreement.
(c) Payments shall be made into an account designated by the Group by wire transfer or other good
and available funds.
Section 3.02
Agreements.

Consent Decree or Other

(a) Each Settling Party shall cooperate with the
Group to the extent reasonable and practical in an attempt to re-open, as appropriate, a Consent Decree or
Other Agreements with any Government (including,
but not limited to the Partial Consent Decree entered
in United States [5] of America v. Abex Aerospace Division, et al., U.S.D.C. (Central District—CA, Western
Div.) CV-00-012471, governing implementation of the
Phase la Response Work, and if necessary Regional

S. App. 55
Response Work, and the reimbursement of Government Response Costs) for the purpose of adding the
Settling Party to such Consent Decree or other Agreements for the limited purpose of obtaining contribution
protection for such Settling Party.
(b) In the event that a Consent Decree or Other
Agreements have been or are entered into with any
Government, the Group agrees to use good faith efforts
(1) to obtain releases from any Government’s Claims
against each Party, and (2) to obtain contribution protection for each Party to the fullest extent authorized
in Sections 113(f)(2) and 122(g)(5) of CERCLA, 42
U.S.C. Section 9613(f)(2) and Section 9622(g)(5), or
other provisions of State or federal law, but subject to
that Party’s continuing and reasonable compliance
with this Agreement. Any releases or contribution protection obtained by the Group pursuant to the previous
sentence shall be at least as broad as any releases or
contribution protection which the Group obtains for itself relating the Omega Site. Each Settling Party shall
reasonably cooperate with the Group and sign the Consent Decree or Other Agreements as necessary to realize the objectives described in this Section. Nothing in
this paragraph shall require any Settling Party to sign
any agreement which requires it to undertake any response activities regarding the Site or any joint and
several obligations.

S. App. 56
Section 3.03 Settling Party’s Representations Regarding Disclosures.
Each Settling Party shall complete in full and execute Exhibit C hereto. The Group has entered into
this Agreement in reliance on these representations by
each Settling Party in its Exhibit C. If the Group
demonstrates that the Settling Party knowingly made
false representations in its Exhibit C then the release
and covenant not to sue shall not apply to any additional waste identified.
ARTICLE IV.
ALLOCATION AND JUDICIAL APPROVAL
Section 4.01 Judicial Approval of Settlement.
(a) OPOG and the Omega LLC shall amend their
complaint in Omega Chemical PRP Group LLC, and
Omega Chemical PRP Group, an unincorporated association, v. Aaron Thomas Company. Inc., a California
corporation, et al., (Central District—CA, Western Div.)
CV-04-01340, or Omega Chemical PRP Group LLC, a
Delaware limited liability company, and Omega Chemical PRP Group, an unincorporated association v. Advanced Packaging Systems, A California corporation, et
al., (Central District—CA, Western Div.) CV-05-00754,
or file a separate complaint to add or include each Settling Party not previously named.
(b) Each Settling Party who entered a tolling
agreement agrees that the agreement is terminated as

S. App. 57
of 45 days prior to the filing date of the amended or
additional complaint adding that party.
(c) OPOG and the Omega LLC will move the
court for an order and judgment, inter alia, (1) approving this Settlement Agreement, (2) ruling that all
claims for contribution or [6] indemnification, however
denominated, except as preserved herein, against the
Settling Parties and Affiliated Parties are barred, and
(3) retaining jurisdiction for the purpose of enforcing
the order and judgment. Each Settling Party shall cooperate with the Group to the extent reasonable and
practical in obtaining such order and judgment.
(d) The payments under paragraph 3.01 shall be
due within thirty (30) days after the Court issues its
order regarding approval of the Settlement Agreement. In the event that the Court does not provide all
of the relief described in paragraph 4.01(c) then each
Settling Party may either pay the amount due under
this Agreement, in which case it shall be entitled to all
of the other benefits of this Agreement, or not pay in
which case the Agreement shall not be effective with
regard to that Settling Party.
ARTICLE V.
RELEASES AND COVENANT NOT TO SUE
Section 5.01

Releases for Settled Mat-

ters.
The Parties mutually release and covenant not to
sue each other and each of their Affiliated Parties for

S. App. 58
all Claims and Liabilities that are based upon or arise
from the Site provided, however, that (1) the releases
and covenants not to sue do not encompass any of the
Excluded Matters set forth in Section 5.02 below, and
(2) the Group shall have the right to seek additional
recovery as set forth in Section 5.03 below. These mutual releases and covenants not to sue shall become effective upon the Effective Date.
Section 5.02

Excluded Matters.

The following Claims and Liabilities are Excluded
Matters that are not subject to the release and covenant not to sue provisions of Section 5.01 above:
(a) Claims and Liabilities of a Party against its
own Affiliated Party based upon or arising from that
Party’s liability relating to the Site;
(b) Claims and Liabilities of a Party against or
between any insurance company, obligor, surety or indemnitor or other person based upon or arising from
that Party’s (or an Affiliated Party’s) claims for insurance, indemnification or other recovery;
(c) Claims and Liabilities for natural resource
damage pursuant to CERCLA Section 107(1) or any
equivalent State law;
(d) Claims and Liabilities by any person or entity
for death, personal injury or disease, loss of future or
past wages or income, loss of consortium, property
damage (other than response costs related to the Site),
diminution in value, or economic loss, whether based
on negligence, strict liability, abnormally dangerous

S. App. 59
activity, statute or other law, including but not limited
to assault, battery, nuisance, trespass, negligence,
strict liability, products liability and infliction of emotional distress and/or fear;
[7] (e) Claims and Liabilities arising under or
with regard to California’s Safe Drinking water and
Toxic Enforcement Act of 1986, popularly known as
“Proposition 65,” California’s Unfair Business Practices Act pursuant to Cal. Bus. Code Section 17200, and
any rules, regulations, orders or notices promulgated
or issued thereunder;
(g) Claims and Liabilities based upon or arising
from events or occurrences caused by a Settling Party
after the Effective Date;
(h)
ment;

Actions to enforce or for breath of this Agree-

(i) Claims and Liabilities based upon or arising
from any volume of material knowingly not disclosed
in Exhibit C or for acts or omissions of the Settling
Party or Affiliated Party(s) other than as the generator
of record for that volume of material set forth on Exhibit A or B; and
(j) Claims and Liabilities based upon or arising
from the Site that meet all of the following conditions:
(1) are not related to obligations under the Partial Consent Decree entered in United States of America v. Abex
Aerospace Division, et al., U.S.D.C. (Central District—
CA, Western Div.) CV-00-012471, (2) are not related to
investigation or remediation of soil or soil vapors at the

S. App. 60
Site, (3) are not related to soil vapors emanating from
the Site other than via the groundwater pathway, and
(4) are not for Regional Response Work.
Section 5.03 Right of Additional Recovery.
The Group shall have the right of additional recovery from each Settling Party listed on Exhibit A of its
percentage share, as stated on Exhibit A, of the amount
by which Total Collective Costs exceed $70 million, not
to exceed the Settling Party’s share of $93 million.
Section 5.04 Civil Code Section 1542.
As to the Settled Matters in this Agreement, the
Parties specifically and expressly waive any rights and
benefits available to them under the provisions of Section 1542 of the California Civil Code, which provides:
A general release does not extend to claims
which the creditor does not know or suspect to
exist in his favor at the time of executing the
release, which if known by him must have
materially affected his settlement with the
debtor.
The Parties have consulted counsel and fully understand the statutory language and intent of Civil
Code Section 1542. The Parties understand that if the
facts or law forming the basis for this Agreement are
found hereafter to be different from the facts or law
now believed by the Parties to the Agreement to be
true, they expressly accept the consequences, and assume the risk of such possible difference in facts or law

S. App. 61
and agree that the Agreement shall remain fully effective nonetheless, and that any different facts or law
shall not be grounds for any action contrary to the
Agreement, including an action for rescission or restitution unless such fact has been intentionally concealed or fraudulently misrepresented.
[8] ARTICLE VI.
ASSIGNMENTS AND
SPECIFICALLY RETAINED CLAIMS
Section 6.01 Less Than Full Compensation.
The Settlement Amount to be paid by each Settling Party is the full share of Settled Matters attributable to that Settling Party, but is not intended to
constitute full compensation for the Group’s Claims
and Liabilities relating to the Settled Matters. The
Group expressly reserves the right to seek full compensation for their Claims and Liabilities relating to the
Settled Matters from all persons other than the Settling Parties and their Affiliated Parties that may have
responsibility or liability for Settled Matters.
Section 6.02

Claims for Settled Matters.

Each Settling Party hereby assigns without recourse to the Omega LLC any and all claims and rights
to assert Claims and Liabilities for Settled Matters, including cost recovery, contribution, equitable indemnification, unjust enrichment or comparable claims
under federal or state law, against all persons that may

S. App. 62
have responsibility or liability for Settled Matters. The
foregoing assignment, however, does not include any
claims the Settling Party may have against its own
insurance carriers, indemnitors, sureties or obligors,
such claims being expressly reserved to the Settling
Party.
Section 6.03

No Prior Assignment.

Each Settling Party represents and warrants that
neither it nor any of its Affiliated Parties has assigned
or transferred or purported to assign or transfer, voluntarily, involuntarily, or by operation of law, any
Claim, cause of action, or Settled Matter released pursuant to this Agreement or any part or portion thereof
Each of the Parties agrees to indemnify each other
Party and hold it harmless from any claim, demand,
damages, debt, obligation, cost, expense, lien, action, or
cause of action (including the payment of attorney’s
fees and costs actually incurred, whether or not litigation is commenced) based upon, in connection with, or
arising out of any such assignment or transfer or purported assignment or transfer to any person or entity
not a Party to this Agreement.
Section 6.04

Assignor’s Cooperation.

Each Settling Party shall execute, and shall make
good faith efforts to secure the execution by appropriate Affiliated Parties of, such further documents as the
Group may reasonably request from time to time in order to confirm, effectuate, or enforce the assignments
of claims made in this Article VI. Each Settling Party
agrees to reasonably cooperate with the Group, and to

S. App. 63
use good faith efforts to secure the cooperation of its
Affiliated Parties, in the Group’s conduct of or participation in any private, administrative, or judicial matters or proceedings to the extent they may implicate or
affect any claim assigned in this Article VI.
[9] ARTICLE VII.
GENERAL PROVISIONS
Section 7.01 Effect of Agreement; Separate Agreements.
Nothing in this Agreement shall be construed to
create any rights in, or grant any cause of action to,
any person not a Party to this Agreement. The preceding sentence shall not be construed to waive or nullify
any rights that any person not a Party may have under
applicable law. Subject to the provisions of Sections
5.01, 5.02 and 5.03, each Party reserves any and all
rights, defenses, Claims and Liabilities, demands, and
causes of action which it may have with respect to any
matter, transaction, or occurrence against any person
not a Party or an Affiliated Party. Notwithstanding any
provision to the contrary, this Agreement does not
modify or vitiate any separate agreement between the
Parties which specifically refers to this Agreement and
which modifies or is contrary to this Agreement.
Section 7.02

Survival of Agreement.

This Agreement shall survive and remain fully
valid and enforceable whether or not persons who are

S. App. 64
not Parties enter into a Consent Decree or Other
Agreements with any Government.
Section 7.03

No Admission of Liability.

Nothing contained in this Agreement nor the
payment of any amount by any Party is or may be
construed to be an admission of any wrongdoing or liability; and more specifically, is not an admission or
acknowledgment by any Party that a release or threatened release of a hazardous substance has occurred at
or from the Site or that an alleged release has resulted
in response costs incurred by any person.
Section 7.04

Notice.

Whenever, under the terms of this Agreement,
written notice is required to be given or a document is
required to be sent to the Group, it shall be directed to:
Omega Chemical PRP Group LLC
c/o Keith F. Millhouse
Millhouse Law Group
2815 Townsgate Road, Suite 330
Westlake Village, California 91361
and to such additional or substitute recipient as the
Group may from time to time designate.
Whenever, under the terms of this Agreement,
written notice is required to be given, or a document is
required to be sent to a Settling Party, it shall be directed to the Settling Party’s representative for service
as designated on the execution page.

S. App. 65
[10] Section 7.05

Remedies.

This Agreement may be pleaded as a complete defense to, and may be used as a basis for an injunction
against bringing, any Claims and Liabilities released
hereunder. In addition, any Settling Party may bring
an action for injunctive relief against the Group or any
the OPOG Members to enforce the terms of this agreement including, but not limited to, the obligation of
those OPOG Members listed on Exhibit D to assume
the Settling Party’s obligations under 3.01(a) pursuant
to the OPOG Members Assurance, Exhibit E.
Section

7.06

Enforcement

of Agree-

ment.
If any Party to this Agreement brings an action to
enforce its rights hereunder, the prevailing party shall
be entitled to recover:
(a) Interest on any monies determined to be owing to it, to be calculated at the rate of seven percent
(7%) per annum, compounded daily; and
(b) Its costs and expenses, including court costs,
attorneys’ fees, and expert and consultants fees, if any,
incurred in connection with such action.
Section 7.07 Construction of Agreement.
This Agreement shall be construed as a whole in
accordance with its fair meaning and in accordance
with the taws of the State of California. Neither the
Group, nor any member of the Group, shall challenge

S. App. 66
the assumption provisions set forth in Section 3.01(a)
or in the OPOG Members Assurance, Exhibit E. Should
any part of this Agreement be found void or invalid, the
remaining portions of this Agreement shall remain in
effect. However, in the event that the assumption provision set forth in Section 3.01(a) is found void of invalid, then this Agreement shall be void ab initio and all
sums paid by the Settling Parties to the Group shall be
returned within 30 clays of such finding. The Parties
have jointly drafted this Agreement and the language
of the Agreement shall not be construed in favor of or
against any particular Party based on the Parties’ respective roles in the drafting process. The headings
used herein are for reference only and shall not affect
the construction of this Agreement. This document
may be executed in counterparts with each copy considered an original. A copy of the full Agreement will
be distributed to each Party Upon complete execution
and a copy will also be retained by and available to any
Party froth the Omega LLC or such other entity as the
Group may from time to time designate.
Section 7.08

Independent Counsel.

Each of the Parties represents and warrants that,
in connection with the negotiation and execution of
this Agreement it has been represented by independent counsel of its own choosing, that it has not relied
upon the advice or counsel of the other Party’s independent counsel in the negotiation or drafting of this
Agreement, that it has executed this Agreement after receiving the advice of such independent counsel,
that its representative has read and understands the

S. App. 67
provisions and terms of this Agreement, and that it has
had an adequate opportunity to conduct [11] an independent investigation of all facts and circumstances
with respect to all matters that are the subject of this
Agreement.
Section 7.09

Deadlines.

If the date by which any payment must be made
or any action must be taken pursuant to this Agreement is a Saturday, Sunday, or holiday as described in
California Civil Code Section 7, then that date shall be
extended until the next calendar day which is not a
Saturday, Sunday, or holiday.
Section 7.10

Sole Agreement.

This Agreement represents the sole and entire
agreement between the Parties and supersedes all
prior agreements, negotiations and discussions between the Parties hereto and/or their respective counsel with respect to the subject matters covered hereby.
Section 7.11 Amendment to Agreement.
Any amendment to this Agreement must be in a
writing, signed by duly authorized representatives of
the Parties hereto and stating the intent of the Parties
to amend this Agreement.
Section 7.12

Corporate Authority.

All corporate Parties hereto represent and warrant that the execution and delivery of this Agreement,
including the attached Exhibits, has been duly and validly authorized and approved by all requisite corporate

S. App. 68
action and that no further action is necessary to
make this Agreement and all transactions contemplated hereby valid and binding on the parties in accordance with its terms. The corporate signatories
hereto represent and warrant that they are authorized
to execute and deliver this Agreement on behalf of
their respective corporate entities or other entities on
whose behalf they have signed. Without limiting the
foregoing, the signatories on behalf of OPOG and
Omega LLC hereby represent and warrant that the execution and delivery of this Agreement has been duly
and validly authorized and approved by all requisite
corporate or other-necessary action including as required by the Omega Chemical Site PRP Group Participation Agreement, as amended from time to time,
including as amended by Exhibits G hereto, and that
no further action is necessary to make this Agreement
and all transactions contemplated hereby valid and
binding on the OPOG and Omega LLC.
Section 7.13

Binding.

This Agreement shall apply to and be binding
upon the Parties, and their successors and assigns. Any
change. in ownership or corporate or other legal status,
including, but not limited to, any transfer of assets or
real or personal property, shall in no way alter the status or responsibilities of the Parties under this Agreement. However, nothing in this Agreement, nor any
purported assignment, shall relieve the Group, or any
of the OPOG Members, of their obligations under this
Agreement.

S. App. 69
[12] IN WITNESS WHEREOF, the Parties hereto enter into this Omega Chemical Site Settlement
Agreement. Each person signing this Agreement represents and warrants that he or she has been duly
authorized to enter into this Agreement by the company(ies) or entity(ies) on whose behalf it is indicated
that the person is signing.
OMEGA CHEMICAL PRP GROUP
Dated:

May 2, 2006

Signature:

Larry G. Gutterridge

Typed Name:

Larry G. Gutterridge

Title:

Counsel

[13] OMEGA CHEMICAL PRP GROUP
LLC
Dated:

5/8/16

Signature:

Keith F. Millhouse

Typed Name:

Keith F. Millhouse

Title:

Member

[Settling Party execution pages follow.]
[14] SETTLING PARTY:
AIRCRAFT CYLINDERS & TURBINES
Dated:

March 29, 2006

Signature:

Josie Burgueno

Typed Name:

Josie Burgueno

S. App. 70
Title:
Secretary
Name and address of Settling Party’s representatives for service hereunder.
Name:

Josie Burgueno

Address:

10959 TUXFORD ST
SUN VALLEY CA 91352

Phone:

[Redacted]

E-mail:

[Redacted]

[Exhibits Omitted]

